DOCKET NO. 20-6043

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
═════════════════════════════════

ROBIN LEE ARCHER,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
═════════════════════════════════
═══════════════════════════════════════

REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
═══════════════════════════

*Martin J. McClain
Fla. Bar No. 0754773
141 NE 30th Street
Wilton Manors, FL 33334
(305) 984-8344
martymcclain@comcast.net
Counsel for Petitioner
*COUNSEL OF RECORD

TABLE OF CONTENTS
PAGE
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . .

ii

REPLY TO THE BRIEF IN OPPOSITION AND RESPONDENT’S ASSERTED
REASONS FOR DENYING THE WRIT. . . . . . . . . . . . . . . . . . 1
1.

THE ISSUES RAISED IN MR. ARCHER’S PETITION ARE NOT
PROCEDURALLY BARRED . . . . . . . . . . . . . . . . . 1

2.

FLORIDA’S SUBSTANTIVE LAW WAS ALTERED BY THE STATUTORY
CONSTRUCTION IN HURST v. FLORIDA AND WAS APPLIED IN
CASES IN WHICH THE HOMICIDE AT ISSUE WAS COMMITTED IN
1978. . . . . . . . . . . . . . . . . . . . . . . . 12

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . .

15

CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . .

15

i

TABLE OF AUTHORITIES
Alleyne v. United States,
570 U.S. 99 (2013) . . . . . . . . . . . . . . . . . . .

11

Apprendi v. New Jersey,
530 U.S. 466 (2000). . . . . . . . . . . . . . . . . . 9, 11
Archer v. Jones,
2017 WL 1034409 (Fla. 2017). . . . . . . . . . . . . . . . 2
Archer v. State,
293 So. 3d 455 (2020). . . . . . . . . . . . . . . . . . . 4
Bouie v. City of Columbia,
378 U.S. 347 (1964). . . . . . . . . . . . . . . . . . . . 5
Bunkley v. Florida,
538 U.S. 835 (2003). . . . . . . . . . . . . . . . . . . . 5
Card v. Jones,
219 So. 3d 47 (Fla. 2017). . . . . . . . . . . . . . . .
Fiore v. White,
531 U.S. 225 (2001). . . . . . . . . . . . . . . .

13

5, 6, 14

Foster v. State,
258 So. 3d 1248 (Fla. 2018). . . . . . . . . . . . . . .

10

Hurst v. Florida,
136 S.Ct. 616 (2016) . . . . . . . . . . . . . . . . . . . 2
Hurst v. State,
202 So. 3d 40 (Fla. 2016). . . . . . . . . . . . .

3, 5, 11

In re Winship,
397 U.S. 358 (1970). . . . . . . . . . . . . . . . . . . . 9
Johnson v. State,
205 So. 3d 1285 (Fla. 2016). . . . . . . . . . . . . . .

13

Montgomery v. Louisiana,
136 S.Ct. 718 (2016) . . . . . . . . . . . . . . . . . . . 5
Mullaney v. Wilbur,
421 U.S. 684 (1975). . . . . . . . . . . . . . . . . .

5, 9

Perry v. State,
210 So. 3d 630 (Fla. 2016) . . . . . . . . . . . . . .

7, 8

ii

Ring v. Arizona,
536 U.S. 584 (2002). . . . . . . . . . . . . . . . . .

5, 9

Rogers v. State,
285 So. 3d 872 (Fla. 2019) . . . . . . . . . . . . . 7, 9-10
State v. Okafor,
306 So. 3d 930 (Fla. 2020) . . . . . . . . . . . . . . .

14

White v. State,
415 So. 2d 719 (Fla. 1982) . . . . . . . . . . . . . . .

13

White v. State,
729 So. 2d 909 (Fla. 1999) . . . . . . . . . . . . . . .

13

White v. State,
817 So. 2d 799 (Fla. 2002) . . . . . . . . . . . . . . .

13

Witt v. State,
387 So. 2d 922 (Fla. 1980) . . . . . . . . . . . . . . . . 2

iii

DOCKET NO. 20-6043
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
═════════════════════════════════

ROBIN LEE ARCHER,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
═════════════════════════════════
═══════════════════════════════════════

REPLY TO RESPONDENT’S BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
═══════════════════════════

Petitioner, ROBIN LEE ARCHER, files his reply to the State’s
Brief in Opposition to his Petition for Writ of Certiorari under
Rule 15.6 of this Court’s rules.
REPLY TO THE BRIEF IN OPPOSITION AND
RESPONDENT’S ASSERTED REASONS FOR DENYING THE WRIT
1.

The issues raised in Mr. Archer’s Petition are not
procedurally barred

As its first reason for denying Mr. Archer’s petition,
Respondent asserts that the Florida Supreme Court denied Mr.
Archer’s appeal on the basis of an independent and adequate
procedural bar. Specifically, Respondent states:
The Florida Supreme Court found that the first
claim was procedurally barred. As the court explained,
the constitutional claim was “procedurally barred”
because the court had “denied this same claim when
[Petitioner] raised it in a petition for a writ of
habeas corpus.”
1

(Brief in Opposition at 8)(hereinafter “BIO at ___”.).
Indeed, the Florida Supreme Court did hold that the circuit
court had properly found the first claim raised by Mr. Archer in
his rule 3.851 motion was procedurally barred due to the ruling
in Archer v. Jones, 2017 WL 1034409 (Fla. 2017), rehearing denied
2018 WL 500330 (Fla. 2018). But, the Questions Presented that
appear in Mr. Archer’s Petition do not concern the first claim
that appeared in the amended 3.851 motion. Instead, the questions
Mr. Archer presents in his Petition arise from the second claim
in his amended 3.851 motion which was denied by the state courts
on the merits.
Following this Court’s decision in Hurst v. Florida, 135
S.Ct. 616 (2016), Mr. Archer filed both a petition for writ of
habeas corpus in the Florida Supreme Court and a rule 3.851
motion in the circuit court arguing that under Witt v. State, 387
So. 2d 922 (Fla. 1980), he was entitled to the retroactive
benefit of the decision in Hurst v. Florida.1
The habeas petition was denied by the Florida Supreme Court
on March 17, 2017. However, Mr. Archer’s motion for rehearing was
not denied by the Florida Supreme Court until January 22, 2018.
While the habeas proceedings were pending, the circuit court

1

He filed both a habeas petition in the Florida Supreme
Court and a rule 3.851 motion in circuit court because of
uncertainty as to which procedural vehicle would be prove to be
the more effective way to present his claim that Hurst v. Florida
should be applied retroactively under Florida law as set forth in
Witt v. State.
2

held the rule 3.851 motion in abeyance. After the denial of the
habeas petition became final, the circuit court allowed Mr.
Archer to amend his 3.851 motion. The amended motion added a
second claim to the 3.851 motion. This second claim was Mr.
Archer’s claim that his death sentence violated the Due Process
Clause and the Eighth Amendment in light of construction of the
plain language of Fla. Stat. § 921.141 which the Florida Supreme
Court announced in Hurst v. State, 202 So. 3d 40 (Fla. 2016). The
statutory construction appearing in Hurst v. State was that the
facts that the statute required a judge to make in writing before
she was authorized to impose a death sentence were essentially
elements of the offense which a jury had to unanimously find
proven by the State beyond a reasonable doubt. Id. at 57 (“these
findings occupy a position on par with elements of a greater
offense”).
When the circuit court addressed Mr. Archer’s amended rule
3.851 motion, it noted that Mr. Archer had conceded that the
claim that Hurst v. Florida was retroactive had been rejected in
Archer v. Jones. The circuit court referred to this as the first
claim and ruled it was procedurally barred. (ROA 628-29).
However, the circuit court denied the second claim on the
merits. This was the Due Process Clause and Eighth Amendment
claim raised in the amendment to the rule 3.851 motion that the
circuit court allowed. Accordingly, the circuit court did not
find Mr. Archer’s second claim to be procedurally barred.
Specifically, the circuit court denied that the second claim
3

saying it “lacks merit and shall be denied.” (ROA 629). The
circuit court elaborated: “Defendant's contention that the Due
Process Clause is violated because the State did not have to
prove the ‘elements’ of ‘capital murder’ beyond a reasonable
doubt is also without merit.” (ROA 629-30).
When the Florida Supreme Court addressed the circuit court’s
ruling as to the second claim, it denied the claim on the merits.
Archer v. State, 293 So. 3d 455, 457 (2020)(“it is without merit,
as we explained in Rogers v. State, 285 So. 3d 872, 885-86 (Fla.
2019).”).
In the BIO, Respondent first notes that when addressing the
second claim of the amended 3.851 motion, the Florida Supreme
Court said: “Even if this claim is not procedurally barred, it is
without merit, as we explained in Rogers v. State, 285 So. 3d
872, 885-86 (Fla. 2019).” (BIO at 9). Respondent does not argue
that the second claim was denied on the basis of a procedural
bar. Instead, Respondent argues that the Florida Supreme Court
denied the merits of the second claim on the basis of Florida
state law:
The court below rejected Petitioner’s theory on
state-law grounds, citing a state court case—Rogers,
Pet. App. 5—which itself relied on state-law
authorities to reject the argument that Hurst II
created new substantive elements that needed to be
proved beyond a reasonable doubt.
(BIO at 10). While the Florida Supreme Court did deny the second
claim on the merits and cited a prior ruling of the Florida
Supreme Court, Mr. Archer’s claim rested upon the Due Process

4

Clause and the Eighth Amendment. It specifically relied upon this
Court’s decisions in Mullaney v. Wilbur, 421 U.S. 684 (1975);
Ring v. Arizona, 536 U.S. 584 (2002); Fiore v. White, 531 U.S.
225 (2001); Bunkley v. Florida, 538 U.S. 835 (2003); Bouie v.
City of Columbia, 378 U.S. 347 (1964); Montgomery v. Louisiana,
136 S.Ct. 718 (2016), among others. Mr. Archer argued that the
statutorily identified facts which must be found to exist in
order to increase the range of permissible punishment to include
a death sentence were not found by a unanimous jury beyond a
reasonable doubt.
In Hurst v. State, the Florida Supreme Court read the plain
language of the capital sentencing statute and held:
We also conclude that, just as elements of a crime must
be found unanimously by a Florida jury, all these
findings necessary for the jury to essentially convict
a defendant of capital murder—thus allowing imposition
of the death penalty—are also elements that must be
found unanimously by the jury. Thus, we hold that in
addition to unanimously finding the existence of any
aggravating factor, the jury must also unanimously find
that the aggravating factors are sufficient for the
imposition of death and unanimously find that the
aggravating factors outweigh the mitigation before a
sentence of death may be considered by the judge.
Hurst v. State, 202 So. 3d at 53-54. According to this Court’s
decision in Ring v. Arizona, those additional findings of fact as
a matter of federal constitutional law constitute elements of the
greater offense. See Ring v. Arizona, 536 U.S. at 610, Scalia,
J., concurring (“the fundamental meaning of the jury-trial
guarantee of the Sixth Amendment is that all facts essential to
imposition of the level of punishment that the defendant

5

receives—whether the statute calls them elements of the offense,
sentencing factors, or Mary Jane—must be found by the jury beyond
a reasonable doubt.”); see also Fiore v. White, 531 U.S. 225,
228-29 (2001) (“We have held that the Due Process Clause of the
Fourteenth Amendment forbids a State to convict a person of a
crime without proving the elements of that crime beyond a
reasonable doubt.)” While the identification of the facts which
must be shown to authorize a more severe sentence than is
otherwise authorized is a matter of a state substantive law,
whether facts are identified as necessary to authorize a more
severe sentence are elements of a greater offense is
determinative of a criminal defendants right to a jury trial
under the Sixth Amendment and right to have the State prove the
elements beyond a reasonable doubt under the Due Process Clause.
Indeed, the failure to require the State prove a fact that the
state courts determined was necessary to authorize a defendant’s
incarceration rendered the conviction returned and sentence
imposed without proof of the required fact invalid. Fiore v.
White, 531 U.S. at 228-29 (“We have held that the Due Process
Clause of the Fourteenth Amendment forbids a State to convict a
person of a crime without proving the elements of that crime
beyond a reasonable doubt.”).
Focusing on the Florida Supreme Court citation to its
earlier decision in Rogers v. State to conclude that Mr. Archer’s
second claim lacks merit, Respondent claims that the citation to
a state court decision meant that the denial of Mr. Archer’s
6

federal constitutional claim was a state law decision over which
this Court lacks jurisdiction. However, the issue raised in the
direct appeal in Rogers v. State was stated by the Florida
Supreme Court as follows:
Rogers first argues that the trial court erred in
failing to instruct the jury that it must determine
beyond a reasonable doubt whether the aggravating
factors were sufficient to justify the death penalty
and whether those factors outweighed the mitigating
circumstances.
Rogers v. State, 285 So. 3d at 885. The trial in Rogers began in
July 31, 2017, which was after Florida’s capital sentencing
statute had been revised in the wake of Hurst v. Florida.2 The
amended version of the statute was examined in by the Florida
Supreme Court in Perry v. State, 210 So. 3d 630, 638 (Fla. 2016):
The amendments to section 921.141 clearly require the
jury to explicitly find at least one aggravating factor
unanimously. Additionally, they require unanimity as to
each aggravating factor that may be considered by the
jury and trial court in determining the appropriate
sentence. The changes also require the jury to consider
whether there are sufficient aggravating factors to
outweigh the mitigating circumstances in order to
impose death. The changes further mandate that a life
sentence be imposed unless ten or more jurors vote for
death.
(Emphasis added). At issue in Perry v. State was whether the
amended statute was constitutional. The Florida Supreme Court
determined that permitting a death sentence without requiring the
jury to make all the necessary factual determinations unanimously

2

Section 921.141 of the Florida Statutes was amended on
March 7, 2016, to require the jury to make the factual findings
that previously the judge was required to make in writing before
she could impose a death sentence.
7

was unconstitutional. Perry explained:
The statute is not explicit as to whether the
requirement of a ten-to-two vote applies to the factual
findings that there are sufficient aggravators and that
the aggravating factors outweigh the mitigating
circumstances or to the ultimate death recommendation.
Compare § 921.141(2)(b), Fla. Stat. (2016), with §
921.141(2)(c), Fla. Stat. (2016). Consistent with our
decision in Hurst [v. State], we construe section
921.141(2)(b) 2. to require the penalty phase jury to
unanimously find beyond a reasonable doubt that each
aggravating factor exists, that sufficient aggravating
factors exist to impose death, and that they outweigh
the mitigating circumstances found to exist. Hurst [v.
State], at 53–54. Clearly, if the intent was to apply a
non-unanimous vote requirement to those separate
factual findings, this would be unconstitutional as
inconsistent with Hurst [v. State], where we have held
that those findings must be made unanimously. See id.
Perry v. State, 210 So. 3d at 639. Accordingly, the Florida
Supreme Court concluded:
to increase the penalty from a life sentence to a
sentence of death, the jury must unanimously find the
existence of any aggravating factor, that the
aggravating factors are sufficient to warrant a
sentence of death, that the aggravating factors
outweigh the mitigating circumstances, and must
unanimously recommend a sentence of death.
Perry v. State, 210 So. 3d at 640.
Following the decision in Perry v. State, Florida’s capital
sentencing statute was again amended on March 13, 2017, in order
to require the jury to return a unanimous death recommendation
before a judge was permitted to consider imposing a death
sentence.3 The statute was otherwise unchanged from the version
3

It is worth noting that the Florida Legislature in the
amendment to the statute enacted on March 13, 2017, expressed no
disagreement with the Florida Supreme Court’s construction of the
capital sentencing statute set forth in Hurst v. State or the
construction of the amended version of the statute set forth in
8

at issue in Perry v. State.
Thus, at issue in the direct appeal in Rogers v. State were
the statutorily identified findings set forth in the amended
statute and discussed in Perry v. State. The appellant in Rogers
argued that the Due Process Clause required that the State bore
the burden of proving beyond a reasonable 1) the existence of the
aggravating factors found by the jury, 2) that those aggravating
factors found by the jury were sufficient to warrant a death
sentence, and 3) that the aggravating factors found by the jury
outweighed all of the mitigating factors that were present. In
making this argument the appellant in Rogers not only relied upon
Perry v. State, but also In re Winship, 397 U.S. 358, 364 (1970);
Mullaney v. Wilbur, 421 U.S. 684, 699 (1975); Apprendi v. New
Jersey, 530 U.S. 466, 494 (2000); Ring v. Arizona, 536 U.S. 584
(2002).
The opinion in Rogers v. State did not disagree with the
determination in both Hurst v. State and Perry v. State that for
a death sentence to be authorized, the jury must: 1) identify the
aggravating factors found to exist; 2) find that the aggravating
factors found to exist are sufficient to warrant a death
sentence; and 3) find that the aggravating factors outweigh all
of the mitigating factors that are present. In Rogers v. State,
the Florida Supreme Court merely held that in Perry v. State it
had “mischaracterized Hurst v. State, which did not require that

Perry v. State.
9

these determinations be made beyond a reasonable doubt.” Rogers
v. State, 285 So. 3d 886. Thus, the court in Rogers v. State
concluded: “these [statutorily required] determinations are not
subject to the beyond a reasonable doubt standard of proof, and
the trial court did not err in instructing the jury.”
In Rogers v. State, the Florida Supreme Court also cited its
decision in Foster v. State, 258 So. 3d 1248 (Fla. 2018), a
decision that issued in December of 2018, more than two years
after Hurst v. State and twenty-one months after the Florida
Legislature amended the capital sentencing statute to comport
with Hurst v. State and Perry v. State. The Florida Legislature
did not express any concern that those decisions had misconstrued
the statutorily identified determinations of fact that were
required before a death sentence became a permissible punishment.
In Foster v. State, the Florida Supreme Court wrote:
[T]he Hurst [v. State] penalty phase findings are not
elements of the capital felony of first-degree murder.
Rather, they are findings required of a jury: (1)
before the court can impose the death penalty for
first-degree murder, and (2) only after a conviction or
adjudication of guilt for first-degree murder has
occurred.
Foster v. State, 258 So. 3d at 1252.
Neither Rogers v. State nor Foster v. State dispute what
determinations a jury must make before a death sentence is a
permissible sentence. Both decisions amount to a rejection of a
contention that whether the determinations that a Florida jury
must make before a death sentence is a permissible sentence are
elements of a greater offense within the meaning of the Due
10

Process Clause. However whether the determinations that the jury
must make before a death sentence is permissible are elements
under the Due Process clause is a federal question. See Alleyne
v. United States, 570 U.S. 99, 102 (2013)(“[a]ny fact that, by
law, increases the penalty for a crime is an ‘element’ that must
be submitted to the jury and found beyond a reasonable doubt.”);
Apprendi v. New Jersey, 530 U.S. at 494 (“Despite what appears to
us the clear “elemental” nature of the factor here, the relevant
inquiry is one not of form, but of effect-does the required
finding expose the defendant to a greater punishment than that
authorized by the jury's guilty verdict?”).
Before issuing Rogers v. State and Foster v. State, the
Florida Supreme Court explicitly held in Hurst v. State:
We also conclude that, just as elements of a crime must
be found unanimously by a Florida jury, all these
findings necessary for the jury to essentially convict
a defendant of capital murder—thus allowing imposition
of the death penalty—are also elements that must be
found unanimously by the jury. Thus, we hold that in
addition to unanimously finding the existence of any
aggravating factor, the jury must also unanimously find
that the aggravating factors are sufficient for the
imposition of death and unanimously find that the
aggravating factors outweigh the mitigation before a
sentence of death may be considered by the judge.
Hurst v. State, 202 So. 3d at 53-54.
While the decisions that the Florida Supreme Court relied on
in denying Petitioner’s appeal (which is the subject of Petition
before this Court) recede from Hurst v. State and Perry v. State,
they do not recede from what the statutorily identified findings
are that must be made before a death sentence may be imposed.

11

Thus contrary to Respondent’s contention, the state law is clear
that 1) one or more aggravating factors must be found, 2) the
aggravating factors found must be sufficient to warrant a death
sentence, and 3) the aggravating factors found must outweigh all
of the mitigating circumstances that are present. The rulings
relied upon in Archer v. State concern the federal question of
whether the requirement that the jury find the aggravating
factors sufficient and that they outweigh all the mitigating
factors are elements for purposes of Due Process Clause.
This Court has jurisdiction to hear and address the
questions presented that Mr. Archer raised in his petition.
2.

Florida’s substantive law was altered by the statutory
construction in Hurst v. State and was applied in cases
in which the homicide at issue was committed in 1978.

Respondent maintains that Hurst v. State did not change
Florida’s substantive law. This assertion rests on a fundamental
misunderstanding of what exactly substantive law is and the fact
that the statutory construction set out in Hurst v. State was
applied to some capital crimes committed as far back as 1978
while it was not applied in other capital cases committed as late
as 1999.
At issue in Mr. Archer’s petition is what is the criminal
offense in Florida for which a death sentence is an authorized
punishment. Under the holding in Hurst v. State, a death sentence
cannot be imposed when a defendant is merely found guilty of
first degree murder. Rather, for a death sentence to be
authorized additional elements over and above first degree murder
12

must be found by a unanimous jury to have been proven by the
State beyond a reasonable doubt.
Individuals convicted of first degree murders committed as
far back as 1978 whose convictions were final long ago but whose
death sentences did not become final until after June 24, 2002,
had their death sentences vacated under Hurst v. State.4 In the
case of William Melvin White, in 2017 the circuit court vacated
his death sentence on the basis of Hurst v. State. The homicide
was committed in 1978. White’s conviction of first degree murder
was final in 1982, but his death sentence did not become final
until after June 24, 2002. See White v. State, 817 So. 2d 799
(Fla. 2002); White v. State, 729 So. 2d 909 (Fla. 1999); White v.
State, 415 So. 2d 719 (1982). After White’s death sentence was
vacated, the State did not pursue another death sentence. As a
result, a life sentence was imposed. White and others individuals
will not receive a death sentence unless they are convicted of
the greater offense, i.e. in addition to first degree murder a
unanimous jury will have to find the statutorily identified
additional elements necessary to authorize death as an available
sentence. See Card v. Jones, 219 So. 3d 47 (Fla. 2017)(Hurst
relief issued in case in which homicide was committed in June
1981, first degree murder conviction was final in 1984,
4

In Fiore v. White, federal habeas relief was ordered
because the construction of the statute defining the criminal
offense announced after Fiore’s conviction was final included an
element that was not found by his to have been proven beyond a
reasonable doubt. The procedural posture there is akin to the
procedural posture in Mr. Archer’s case.
13

resentencing was ordered in 1996, and death sentence was not
final until after June 24, 2002); Johnson v. State, 205 So. 3d
1285 (Fla. 2016)(Hurst relief issued in case in which three
homicides were committed in January 1981, first degree murder
convictions were final in 1993, resentencing was ordered in 2010,
and death sentence was not final when Hurst issued).
Mr. Archer stands convicted of first degree murder for a
1991 homicide. The conviction was final in 1993 although a
resentencing was ordered. Mr. Archer’s death sentence became
final in 1996. While the first degree murder convictions in Card
v. Jones and Johnson v. State, were for murders committed 10
years before the one at issue in Mr. Archer’s case and the first
degree murder convictions were final before Mr. Archer’s
conviction became final, neither Mr. Card nor Mr. Johnson were
validly sentenced to death on their convictions of first degree
murder. Additional elements were held to be required. Meanwhile,
Mr. Archer’s death sentence on a first degree murder conviction
remains intact under to the Florida Supreme Court’s ruling at
issue here. There is no principled distinction.
Indeed the Florida Supreme Court has haphazardly applied
Hurst v. State in a retroactive fashion to some but not others.
It has even sought to undo Hurst v. State and receded from its
holding in some cases, but not in other cases. See State v.
Okafor, 306 So. 3d 930 (Fla. 2020). The resulting confusion and
chaos in Florida’s substantive law screams out for certiorari
review. In Fiore v. White, 531 U.S. at 226, the question

14

presented on which certiorari review was granted was “when, or
whether, the Federal Due Process Clause requires a State to apply
a new interpretation of a state criminal statute retroactively to
cases on collateral review.” However, this Court ultimately did
not decide the question presented in Fiore in light of the
Pennsylvania Supreme Court’s subsequent explanation of
Pennsylvania’s substantive law. In light of the seemingly ever
changing substantive law in Florida which is being haphazardly
applied, this Court should grant certiorari review here to
address and decided the question on which review was granted in
Fiore, but which was left unanswered when the decision in Fiore
v. White issued.
CONCLUSION
Based on the foregoing, Petitioner submits that certiorari
review of the questions presented set out in his petition is
warranted.
Respectfully submitted,
/s/. Martin J. McClain
MARTIN J. McCLAIN
Florida Bar No. 0754773
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing petition
has been furnished by United States Mail, first class postage
prepaid, to all counsel of record on February 15, 2021.
/s/. Martin McClain
MARTIN J. MCCLAIN
Fla. Bar. No. 0754773
141 NE 30th Street
Wilton Manors, FL 33334
15

(305) 984-8344
martymcclain@comcast.net
Counsel for Petitioner

16

